U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Pedro M. Bess v. United States, No. 20-489
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 9,
2020. The government’s response is now due, after four extensions, on April 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0489
BESS, PEDRO M.
USA

CLIFTON EARL MORGAN III
U.S. NAVY JAG CORPS
1254 CHARLES MORRIS ST, SE
BLDG.58
SUITE 100
WASHINGTON, DC 20374
202-685-7052
CLIFTON.MORGAN@NAVY.MIL

